                                      U N ITE D    S TA TE S
                 CONSUMER        PRODUCT SAFETY COMMISSION
                               4330 E A S T WE S T H I G H WA Y
                                  B ETH ES DA, MD 20814


                            CHAI RM A N   INEZ M. TENENBAUM


                                    November
                                           I 8, 2009



The HonorablePeterOrszag
Director
Office of.Management  and Budget
'725- l'l'n Street,NW
Washington,DC 20503

Dear DirectorOrszag:

      As requiredby the OfTiceof Managementand Budget,the U.S. ConsumerProduct
SafetyCommission(CPSC)is submittingthe Office of InspectorGeneral'sFederal
Information Security ManagementAct (FISMA) 2009 report.

       I havereviewedthe FISMA reportand agreewith the InspectorGeneral'sassessment.
Our plan to remediateany outstandingissueswill be reflectedin our quarterlyPlanof Action
and Milestones.

       Information technologysecurityand privacy compliancearecritical to the
Commission'smissionto protectthe public from unreasonable   risksof seriousinjury or
deathfrom  consumer  products
                            underthe agency's jurisdiction. CPSCwill continueto
               manasetheseareasto ensureour success.
conscientior.rslv

                                                  Verytrulyyours,


                                                  Jr^-(        J'   -*rrt--
                                                  InezM. Tenenbaum

Enclosure




                  CPSCHollifle:          (2772)
                             1-800-638-CPSC         WebSite:http://www.cpsc.gov
                                              - CPSC'S
Chief Information Officer 2009             Annual FISMA
Section Report                             Annual FISMA
                                              Report




      Consumer Product Safety Commission




                   For Official Use Only
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing

1. Identify the number of Agency and contractor systems by component and FIPS 199 impact level (low, moderate, high). Please also
identify the number of systems that are used by your Agency but owned by another federal Agency (i.e., ePayroll, etc.) by component
and FIPS 199 impact level.

2. For the Total Number of Systems Identified by Component/Bureau and FIPS System Impact Level in the table for Question 1,
identify the number and percentage of systems which have: a current certification and accreditation, security controls tested and
reviewed within the past year, and a contingency plan tested in accordance with policy.
                                                   FISMA Inventory                                     Certification and Accreditation (C&A) and Testing

                                    1a.            1b.            1c.           1d.                       2a.                               2b.                     2c.
                                  Agency        Contractor     Systems         Total        Number of systems certified and             Number of               Number of
                                  Systems        Systems       owned by       Systems                 accredited                       systems for          systems for which
                                                               another                                                                which security        contingency plans
                                                               Federal                                                                 controls have        have been tested in
                                                                Agency                                                                 been tested           accordance with
                                                                                                                                      and reviewed in             policy
                                                                                                                                       the past year
Agency/         Category            Number         Number         Number         Total        Total                           % of      Total     % of         Total      % of Total
Component                                                                      Number       Number                            Total   Number      Total      Number
CPSC            High                        0              0              2             0         0                              0          0           0          0              0
                Moderate                    1              0              1             1         1                           100           1       100            0              0
                Low                         0              0              0             0         0                              0          0           0          0              0
                Not Categorized             0              0              0             0         0                              0          0           0          0              0
                Sub Total                   1              0              3             1         1                           100           1       100            0              0
Agency Totals   High                        0              0              2             0         0                              0          0           0          0              0
                Moderate                    1              0              1             1         1                           100           1       100            0              0
                Low                         0              0              0             0         0                              0          0           0          0              0
                Not Categorized             0              0              0             0         0                              0          0           0          0              0
                Total Systems               1              0              3             1         1                           100           1       100            0              0




2009 Annual FISMA Report - Consumer Product                               For Official Use Only                                                   CIO Report - Page 1 of 6
Safety Commission
Question 3: Implementation of Security Controls in NIST Special Publication 800-53
What tools and techniques do you use for continuous monitoring?
    Tool/Technique Name                                                             Tool Category
    ISS RealSecure                                                                  Intrusion Detection and Prevention Systems
    Zen Asset Management                                                            Inventory Management and Control Tool
    eEye Retina                                                                     Vulnerability Scanners
    Observation                                                                     Other
    Hands-on control testing                                                        Other


Question 4: Incident Detection, Monitoring and Reponse Capabilities

4a. What tools, techniques, technologies, etc., does the Agency use for incident detection?

    Tool/Technique Name                                                              Tool Category
    Symantec Antivirus                                                               Antimalware Software

    Kaspersky Client Security                                                        Antimalware Software

    ISS Intrusion Detection                                                          Intrusion Detection and Prevention Systems

    Zen Asset Management                                                             Inventory Management and Control Tool

    CheckPoint Firewall                                                              Network Access Control

    Blue Coat Internet Scanner                                                       Network Monitoring Software

    eEye Retina                                                                      Vulnerability Scanners

4b. How many systems (or networks of systems) are protected using the tools, techniques and technologies described in 4(a) above?
    1

4c. How often does the Agency log and monitor activities involving access to and modification of critical information?

     0 % to 0 %


4d. What percentage of systems maintain audit trails that provide a trace of user actions?
     0 % to 0 %




2009 Annual FISMA Report - Consumer Product                      For Official Use Only                                            CIO Report - Page 2 of 6
Safety Commission
4e. Does the Agency maintain an incident handling and response capability?
     Yes



4f. If the answer to 4(e) is yes, what percentage of systems are operated within the Agency's incident handling and response
capability?
    100 % to 100 %

4g. What tools, techniques, technologies, etc., does the Agency use for incident handling and response?

     Tool/Technique Name                                                            Tool Category
     Symantec                                                                       Antimalware Software
     Kaspersky Client Security                                                      Antimalware Software
     F-Secure                                                                       Antimalware Software
     eEye Retina                                                                    Computer Forensic Tools
     Nessus                                                                         Computer Forensic Tools
     ISS Real Secure                                                                Intrusion Detection and Prevention Systems
     Blue Coat                                                                      Network Monitoring Software
     Fluke Networks Sniffer                                                         Network Monitoring Software


Question 5: Security Awareness Training

5a. Report the following for your Agency:

     5a(1). Total number of people with log-in privileges to Agency systems.
              555


     5a(2). Number of people with log-in privileges to Agency systems that received information security awareness training during
     the past fiscal year, as described in NIST Special Publication 800-50, "Building an Information Technology Security Awareness
     and Training Program."

             437    (79%)




2009 Annual FISMA Report - Consumer Product                     For Official Use Only                                            CIO Report - Page 3 of 6
Safety Commission
     5a(3). Number of people with log-in privileges to Agency systems that received information security awareness training using an
     ISSLOB shared service center. (Breakout total for b.)

             0    (0%)
     5a(4). Total number of employees with significant information security responsibilities.

             25
     5a(5). Number of employees with significant security responsibilities that received specialized training as described in NIST
     Special Publication 800-16, "Information Technology Security Training Requirements: A Role-and Performance-Based Model".
             23    (92 %)
     5a(6). Total costs for providing information security training in the past fiscal year (in $'s).
              $6,600

5b. Briefly describe the training provided in 5a(2) and 5a(5) and how you measure its effectiveness:

              Comments:        The CPSC IT security awareness training course explains proper rules of behavior for the use of CPSC IT systems
                               and information. It also explains common security threats and vulnerabilities. Effectiveness is measured through the
                               use of course quizzes.

Question 6: Peer-to-Peer File Sharing
Does the Agency explain policies regarding the use of peer-to-peer file sharing in information security awareness training, ethics
training, or any other Agency-wide training?
No

Question 7: Configuration Management

7a. Is there an Agency-wide configuration policy?
     No
     7a(1). Enter the systems/platforms/applications for which configuration policies exist and provide the implementation status.
     Identify all that are applicable.
      OS/Platform/System                                         Implementation Status
      N/A
                                                                 What tools and techniques is your Agency using for monitoring compliance?


2009 Annual FISMA Report - Consumer Product                      For Official Use Only                                            CIO Report - Page 4 of 6
Safety Commission
     OS/Platform/System                                      Implementation Status
      N/A
                                                                   Tool/Technique Name                  Tool Category



7b. Indicate the status of the implementation of FDCC at your Agency:

     7b(1). Agency has documented deviations from FDCC standard configuration.

             No
     7b(2). New Federal Acquisition Regulation 2008-004 language, which modified "Part 39-Acquisition of Information Technology,"
     is included in all contracts related to commons security settings.
             No
     7b(3). List the percentage of workstations and laptops that are in compliance.

             90 % to 100 %

Question 8: Systems Incident Reporting

Indicate whether or not the Agency follows documented policies and procedures for reporting incidents internally, to US-CERT and to
law enforcement.

8a. How often does the Agency follow documented policies and procedures for identifying and reporting incidents internally?

     90 % to 100 %
8b. How often does the Agency comply with documented policies and procedures for timelines of reporting to US-CERT?

     90 % to 100 %
8c. How often does the Agency follow documented policies and procedures for reporting to law enforcement?

     90 % to 100 %




2009 Annual FISMA Report - Consumer Product                   For Official Use Only                                      CIO Report - Page 5 of 6
Safety Commission
Question 9: Performance Metrics for Security Policies and Procedures
Please provide three (3) outcome/output-based performance metrics your Agency uses to measure the effectiveness or efficiency of
security policies and procedures. The metrics must be different than the ones used in these FISMA reporting instructions, and can be
tailored from NIST's Special Publication 800-55 "Performance Measurement Guide for Information Security."
     Metric Name                                       Metric Description
     System and Communication                          Measures the percentage of mobile computers and devices that perform all
                                                       cryptographic operations using FIPS 140-2 validated cryptographic modules operating
                                                       in approved modes of operation.
     Physical Security Incidents                       Measures the percentage of physical security incidents allowing unauthorized entry into
                                                       facilities containing information systems.
     Incident Response                                 Measures the percentage of incidents reported within required time frame per applicable
                                                       incident category.

Question 10: HSPD-12

Number of FISMA applications in which Federal employees and contractors are using HSPD-12 Personal Identity Verification
credentials for access.
0




2009 Annual FISMA Report - Consumer Product                   For Official Use Only                                            CIO Report - Page 6 of 6
Safety Commission
Inspector General                         2009
Section Report                           Annual FISMA
                                         Annual FISMA
                                            Report




   Consumer Product Safety Commission




                 For Official Use Only
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing
1. Identify the number of Agency and contractor systems by component and FIPS 199 impact level (low, moderate, high) reviewed.



2. For the Total Number of Reviewed Systems Identified by Component/Bureau and FIPS System Impact Level in the table for
Question 1, identify the number and percentage of systems which have: a current certification and accreditation, security controls
tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                        c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems          Number of systems
                                                                                    Systems(Agency and         systems certified       for which security              for which
                                                                                    Contractor systems)         and accredited         controls have been          contingency plans
                                                                                                                                       tested and reviewed        have been tested in
                                                                                                                                         in the past year           accordance with
                                                                                                                                                                        policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
CPSC               High                   0           0           0             0          0              0                        0                          0                         0
                   Moderate               1           1           0             0          1              1                        1                          1                         0
                   Low                    0           0           0             0          0              0                        0                          0                         0
                   Not Categorized        0           0           0             0          0              0                        0                          0                         0
                   Sub Total              1           1           0             0          1              1                        1                          1                         0
Agency Totals      High                   0           0           0             0          0              0                        0                          0                         0
                   Moderate               1           1           0             0          1              1                        1                          1                         0
                   Low                    0           0           0             0          0              0                        0                          0                         0
                   Not Categorized        0           0           0             0          0              0                        0                          0                         0
                   Total Systems          1           1           0             0          1              1                        1                          1                         0




2009 Annual FISMA Report - Consumer Product Safety                      For Official Use Only                                                               IG Report - Page 1 of 7
Commission
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory
The Agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the Agency or other
organization on behalf of the Agency meet the requirements of FISMA, OMB policy and NIST guidelines, national security policy, and
Agency policy.

Agencies are responsible for ensuring the security of information systems used by a contractor of their Agency or other organization on
behalf of their Agency; therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another
Federal Agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.
 3a. Does the Agency have policies for oversight of contractors?
     No

 3b. Does the Agency have a materially correct inventory of major information systems (including national security systems)
 operated by or under the control of such Agency?
     Yes

 3c. Does the Agency maintain an inventory of interfaces between the Agency systems and all other systems, such as those not
 operated by or under the control of the Agency?
     No
 3d. Does the Agency require agreements for interfaces between systems it owns or operates and other systems not operated by
 or under the control of the Agency?
     Yes
 3e. The Agency inventory is maintained and updated at least annually.
     No
 3f. The IG generally agrees with the CIO on the number of Agency-owned systems.
     Yes

 3g. The IG generally agrees with the CIO on the number of information systems used or operated by a contractor of the Agency or
 other organization on behalf of the Agency.
     Yes


2009 Annual FISMA Report - Consumer Product Safety            For Official Use Only                                           IG Report - Page 2 of 7
Commission
Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the Agency has developed, implemented, and is managing an Agency-wide plan of action and milestones (POA&M)
process, providing explanatory detail in the area provided.

4a. Has the Agency developed and documented an adequate policy that establishes a POA&M process for reporting IT security
deficiencies and tracking the status of remediation efforts?

     Yes
     4a(1). Has the Agency fully implemented the policy?

              No
4b. Is the Agency currently managing and operating a POA&M process?
     Yes
 4c. Is the Agency's POA&M process an Agency-wide process, incorporating all known IT security weakness, including
 IG/external audit findings associated with information systems used or operated by the Agency or by a contractor of the Agency or
 other organization on behalf of the Agency?
     Yes

 4d. Does the POA&M process prioritize IT security weakness to help ensure significant IT security weaknesses are corrected in
 a timely manner and receive appropriate resources?
     Yes

 4e. When an IT security weakness is identified, do program officials (including CIOs, if they own or operate a system) develop,
 implement, and manage POA&Ms for their system(s)?
      No

 4f. For Systems Reviewed:
     4f(1). Are deficiencies tracked and remediated in a timely manner?
            No


2009 Annual FISMA Report - Consumer Product Safety             For Official Use Only                                         IG Report - Page 3 of 7
Commission
      4f(2). Are the remediation plans effective for correcting the security weakness?

            No

      4f(3). Are the estimated dates for remediation reasonable and adhered to?
            No
 4g. Do Program officials and contractors report their progress on security weakness remediation to the CIO on a regular basis (at
 least quarterly)?
     No

 4h. Does the Agency CIO centrally track, maintain, and independently review/validate POA&M activities on at least a quarterly
 basis?
     No

Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the Agency's certification and accreditation (C&A) process, including adherence to existing policy,
guidance, and standards. Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation
of Federal Information Systems" for C&A work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security
Categorization of Federal Information and Information Systems," to determine a system impact level, as well as associated NIST
documents used as guidance for completing risk assessments and security plans.

 5a. Has the Agency developed and documented an adequate policy for establishing a C&A process that follows the NIST
 framework?
     No
 5b. Is the Agency currently managing and operating a C&A process in compliance with its policies?
      No
 5c. For Systems reviewed, does the C&A process adequately provide:
      5c(1). Appropriate risk categories
             Yes
      5c(2). Adequate risk assessments
             Yes
      5c(3). Selection of appropriate controls

2009 Annual FISMA Report - Consumer Product Safety             For Official Use Only                                        IG Report - Page 4 of 7
Commission
             Yes
      5c(4). Adequate testing of controls
             Yes
      5c(5). Regular monitoring of system risks and the adequacy of controls
             Yes
 5d. For systems reviewed, is the Authorizing Official presented with complete and reliable C&A information to facilitate an
 informed system Authorization to Operate decision based on risks and controls implemented?
      Yes

Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process
Provide a qualitative assessment of the Agency's process, as discussed in the SAOP section, for protecting privacy-related information,
including adherence to existing policy, guidance and standards. Provide explanatory information in the area provided.

6a. Has the Agency developed and documented adequate policies that comply with OMB guidance in M-07-16, M-06-15, and
M-06-16 for safeguarding privacy-related information?
     Yes
6b. Is the Agency currently managing and operating a privacy program with appropriate controls in compliance with its policies?
     No
6c. Has the Agency developed and documented an adequate policy for PIAs?
     Yes
6d. Has the Agency fully implemented the policy and is the Agency currently managing and operating a process for performing
adequate PIAs?
     No

Question 7: Configuration Management

 7a. Is there an Agency wide security configuration policy?
     No




2009 Annual FISMA Report - Consumer Product Safety             For Official Use Only                                           IG Report - Page 5 of 7
Commission
7a(1). For each OS/platform/system for which your Agency has a configuration policy, please indicate the status of implementation
for that policy.
     OS/Platform/System                                  Implementation Status
     N/A
                                                         What tools and techniques is your Agency using for monitoring compliance?
                                                                  Tool/Technique Name                   Tool Category




 7b. Indicate the status of the implementation of Federal Desktop Core Configuration (FDCC) at your Agency:
     7b(1). Agency has documented deviations from FDCC standard configuration.

             No

     7b(2). New Federal Acquisition Regulation 2008-004 language, which modified "Part 39-Acquisition of Information Technology,"
     is included in all contracts related to common security settings.
             No

Question 8: Incident Reporting

 8a. How often does the Agency comply with documented policies and procedures for identifying and reporting incidents internally?

     100 % to 100 %

 8b. How often does the Agency comply with documented policies and procedures for timely reporting of incidents to US-CERT?
     100 % to 100 %

 8c. How often does the Agency follow documented policies and procedures for reporting to law enforcement?
     100 % to 100 %

Question 9: Security Awareness Training


2009 Annual FISMA Report - Consumer Product Safety           For Official Use Only                                        IG Report - Page 6 of 7
Commission
Provide an assessment of whether the Agency has provided IT security awareness training to all users with log-in privileges, including
contractors. Also provide an assessment of whether the Agency has provided appropriate training to employees with significant IT
security responsibilities.

9a. Has the Agency developed and documented an adequate policy for identifying all general users, contractors, and system
owners/employees who have log-in privileges, and providing them with suitable IT security awareness training?
     Yes
9b. Report the following for your Agency:
     9b(1). Total number of people with log-in privileges to Agency systems.
              555
     9b(2). Number of people with log-in privileges to Agency systems that received information security awareness training during the
     past fiscal year, as described in NIST Special Publication 800-50, "Building an Information Technology Security Awareness and
     Training Program."
              437           (79 %)
     9b(3). Total number of employees with significant information security responsibilities.
             25
     9b(4). Number of employees with significant security responsibilities that received specialized training, as described in NIST
     Special Publication 800-16, "Information Technology Security Training Requirements: A Role- and Performance-Based Model."

             23            (92 %)

Question 10: Peer-to-Peer File Sharing

10. Does the Agency explain policies regarding the use of peer-to-peer file sharing in IT security awareness training, ethics training,
or any other Agency-wide training?
     No




2009 Annual FISMA Report - Consumer Product Safety              For Official Use Only                                          IG Report - Page 7 of 7
Commission
Senior Agency Official for Privacy          2009
Section Report                             AnnualFISMA
                                          Annual  FISMA
                                              Report




     Consumer Product Safety Commission




                  For Official Use Only
Question 1: Information Security Systems

Identify the number of Agency and contractors systems that contain Federal information in identifiable form. Identify the number of Agency and
contractor systems for which a Privacy Impact Assessment (PIA) is required under the E-Gov Act and identify the number of Agency and contractor
systems covered by an existing PIA. Please identify the number of systems for which a system of records notice (SORN) is required under the
Privacy Act and identify the number of systems for which a current SORN has been published in the Federal Register.

                                     a.                                b.                                      c.                                      d.                                     e.
                            Number of systems              Number of systems in            Number of systems in (b) covered               Number of systems in (a)         Number of systems in (d) for which
                           that contain Federal           (a) for which a Privacy                    by an existing PIA                     for which a system or               a current SORN has been
                              information in                Impact Assessment                                                             records notice (SORN) is          published in the Federal Register
                             identifiable form            (PIA) is required under                                                        required under the Privacy
                                                                the E-Gov Act                                                                         Act

    Agency / Component   Agency    Contractor     Total   Agency    Contractor    Total    Agency     Contractor      Total        %      Agency    Contractor     Total   Agency    Contractor     Total        %
                         Systems     Systems    Systems   Systems     Systems    Number    Systems      Systems     Number.   Complete    Systems     Systems    Number.   Systems     Systems     Number   Complete

CPSC                         22            0        22        13            0       13          2             0          2       15%          22            0        22        21            0        21       95%
Total                        22            0        22        13            0       13          2             0          2       15%          22            0        22        21            0        21       95%



Question 2: Links to PIAs and SORNS

2a. The URL of the centrally located page on the Agency web site listing working links to Agency PIAs.
        http://www.cpsc.gov/cpscpub/pubs/reports.html#pia

2b. The URL of the centrally located page on the Agency web site listing working links to the published SORNs.
        http://www.cpsc.gov/cpscpub/pubs/systems.html

Question 3: Senior Agency Official for Privacy (SAOP) Responsibilities
3a. Can your Agency demonstrate through documentation that the privacy official participates in all Agency information privacy
compliance activities (i.e., privacy policy as well as IT information policy)?
    No

3b. Can your Agency demonstrate through documentation that the privacy official participates in evaluating the ramifications for
privacy of legislative, regulatory and other policy proposals, as well as testimony and comments under Circular A-19?
    No
2009 Annual FISMA Report - Consumer Product                                               For Official Use Only                                                                SAOP Report - Page 1 of 6
Safety Commission
3c. Can your Agency demonstrate through documentation that the privacy official participates in assessing the impact of technology on
the privacy of personal information?
    Yes

Question 4: Information Privacy Training and Awareness

4a. Does your Agency have a policy in place to ensure that all personnel (employees, contractors, etc.) with access to Federal data are
generally familiar with information privacy laws, regulations and policies, and understand the ramifications of inappropriate access and
disclosure?
    Yes

4b. Does your Agency have a program for job-specific and comprehensive information privacy training for all personnel (employees,
contractors, etc.) directly involved in the administration of personal information or information technology systems, or with significant
information security responsibilities?
     No

Question 5: PIA and Web Privacy Policies and Processes

Does the Agency have a written policy or process for each of the following?
5a. PIA Policies
    5a(1). Determining whether a PIA is needed.
            Yes
    5a(2). Conducting a PIA.
            Yes
    5a(3). Evaluating changes in business process or technology that the PIA indicate as necessary.
            No

    5a(4). Ensuring systems owners and privacy and IT experts participate in conducting the PIA.
            Yes

    5a(5). Making PIAs available to the public in the required circumstances.
            Yes
2009 Annual FISMA Report - Consumer Product                     For Official Use Only                                        SAOP Report - Page 2 of 6
Safety Commission
    5a(6). Making PIAs available in other than required circumstances.
             No
5b. Web Policies

    5b(1). Determining continued compliance with stated web policies.
             No

    5b(2). Requiring machine-readability of public-facing Agency web sites (i.e. use of P3P).
            No

Question 6: Reviews Mandated by Privacy Act of 1974, the E-Government Act of 2002, and the Federal
Agency Data Mining Reporting Act of 2007
                              a.          b.         c.        d.            e.             f.           g.            h.          i.            j.              k.                l.
    Component / Bureau     Section M   Records     Routine   Exemp-       Matching       Training   Violations:    Violations:   System        (e)(3)          Privacy         Data Mining
                           Contracts   Practices    Uses      tions       Programs                  Civil Action   Remedial        of        Statement         Impact            Impact
                                                                                                                     Action      Record                      Assessments       Assessment
                                                                                                                                                             and Updates
  CPSC                        No          No         No               0              1     No           No             No               21               0                 7      No


Question 7: Written Privacy Complaints
In the table provided, indicate the number of written complaints for each type of of privacy issue allegation received by the SAOP, in addition to the
number of complaints for each type of complaint. Written complaints do not include Freedom of Information Act requests or Privacy Act access
requests.




2009 Annual FISMA Report - Consumer Product                               For Official Use Only                                                              SAOP Report - Page 3 of 6
Safety Commission
Type of Complaint                                                                                                           Number of Complaints
7a. Process and Procedural - consent, collection, and appropriate notice.                                                                       0

7b. Redress - non-Privacy Act inquiries seeking resolution of difficulties or concerns about privacy                                            0
matters.
7c. Operational - inquiries regarding Privacy Act matters not including Privacy Act requests for access                                         0
and/or correction.
7d. Referrals - complaints referred to another Agency with jurisdiction.                                                                        0

Question 8: Policy Compliance Review
8a. Does the Agency have current documentation demonstrating review of compliance with information privacy laws, regulations, and
policies?
     No

8b. Can the Agency provide documentation of planned, in progress, or completed corrective actions necessary to remedy
deficiencies identified in compliance reviews?
    Yes

8c. Does the Agency use technologies that enable continuous auditing of compliance with stated privacy policies and practices?
    No

8d. Does the Agency coordinate with the Agency's Inspector General on privacy program oversight?
    Yes

Question 9: Information About Advice Provided by the SAOP
Please state “Yes” or “No” to indicate if the SAOP has provided formal written advice in each of the listed categories, and briefly
describe the advice. For descriptions of training, please provide the number of employees (or contractors) who participated in the
training.
9a. Agency policies, orders, directives, or guidance governing Agency handling of personally identifiable information.
    Yes


9b. Written Agreements (either Interagency or with Non-Federal Entities).

2009 Annual FISMA Report - Consumer Product                     For Official Use Only                                       SAOP Report - Page 4 of 6
Safety Commission
    No

9c. Reviews or feedback outside of the SORN and PIA process (e.g. formal written advice in the context of a budgetary or
programmatic planning).
    No
9d. Privacy Training (either stand-alone or included with training on related issues).
    Stand Alone

Question 10: Agency Use of Persistent Tracking Technology
10a. Does the Agency use persistent tracking technology on any web site?
      No
10b. Does the Agency annually review the use of persistent tracking?
      No

10c. Can the Agency demonstrate through documentation the continued justification for, and approval to use, the persistent tracking
technology?
      No

10d. Can the Agency provide the notice language or citation for the web privacy policy that informs visitors about the persistent
tracking?
      No

Question 11: Privacy Points of Contact Information

     Title / Role                                    Name                                Phone            E-Mail
     Agency Head                                     Inez Tenenbaum                      301-504-7896       itenenbaum@cpsc.gov
     Chief Information Officer                       Patrick Weddle                      301-504-7654       pweddle@cpsc.gov
     Chief Information Security Officer              Patrick Manley                      301-504-6946       pmanley@cpsc.gov
     Senior Agency Official for Privacy              Mary Kelsey                         301-504-7213       mkelsey@cpsc.gov
     Agency Inspector General                        Christopher Dentel                  301-504-7644       cdentel@cpsc.gov
     Chief Privacy Officer                           N/A
     Privacy Advocate                                Linda Glatz                         301-504-7671       lglatz@cpsc.gov
2009 Annual FISMA Report - Consumer Product                     For Official Use Only                                      SAOP Report - Page 5 of 6
Safety Commission
     Title / Role                               Name                             Phone          E-Mail
     Privacy Act Officer                        Todd Stevenson                   301-504-6836    tstevenson@cpsc.gov
     Reviewing Official for PIAs                Patrick Weddle                   301-504-7654    pweddle@cpsc.gov
     POC for URL links provided in Question 2   Philip Margolies                 301-504-6987    pmargolies@cpsc.gov




2009 Annual FISMA Report - Consumer Product              For Official Use Only                                 SAOP Report - Page 6 of 6
Safety Commission
